                                              EMPLOYMENT AND
                                              TRAINING ADMINISTRATION

Office of Inspector General—Office of Audit




                                              State of California
                                              Direct Labor Costs Charged to
                                              Employment and Training Grants




                                                                        Date Issued: September 13, 2006
                                                                        Report Number: 03-06-006-03-315
U.S. Department of Labor                               September 2006
Office of Inspector General
Office of Audit                                        State of California
                                                       Direct Labor Costs Charged To
                                                       Employment and Training Grants
BRIEFLY…
Highlights of Report Number: 03-06-006-03-315, a       WHAT OIG FOUND
report to the Assistant Secretary, Employment and      The audit found that EDD could not support the
Training Administration (ETA).                         basis for allocation of $53.2 million of direct labor
                                                       costs and $23.5 million in associated costs.
WHY READ THE REPORT
The California Employment Development                  WHAT OIG RECOMMENDED
Department (EDD) employed 12,000 employees to          We recommended that the Assistant Secretary for
administer workforce programs around the State.        Employment Training:
Between July 1, 2001, and June 30, 2002, EDD
reported expenditures of about $1 billion                  1. Direct EDD to submit documentation to
applicable to ETA programs. DOL grants are                    support the adjustment from estimated to
awarded primarily by ETA.                                     actual costs concerning the $53.2 million
                                                              of direct labor costs and $23.5 million in
We found EDD used allocation codes based on                   associated costs for SFYs 2001 and 2002.
previously determined percentages to charge                   Based on the results of adjusting the
direct cost for time spent by employees who                   estimated costs to actual costs, recover
worked on more than one benefiting program.                   the amount of direct labor and associated
However, EDD did not review and update the                    costs that EDD overcharged the ETA
allocation codes quarterly to provide actual time             grants, pursuant to OMB Circular A-87,
spent on projects for SFYs 2001 and 2002. While               Attachment E, paragraph F.5.
the Office of Management and Budget (OMB)
guidance (Circular A-87) allows states to bill             2. Direct EDD to submit documentation to
Federal grants on the basis of estimated costs,               support the adjustment from estimated to
they must adjust the charges to reflect actual costs          actual costs charged to ETA grants for
at the end of the year. As state budgets shrink,              SFYs 2003 through 2005, and recover the
the risk grows that Federal grant programs may be             amount of direct labor and associated
overcharged for direct costs.                                 costs that EDD overcharged the ETA
                                                              grants.
WHY OIG CONDUCTED THE AUDIT                                3. Direct EDD to submit for approval an
The OIG conducted a performance audit to                      allocation methodology for the costs that
determine whether direct and indirect costs                   benefit more than one program or activity
charged to ETA grant programs followed the                    to assure its methodology for charging
                                                              direct labor and associated costs to ETA
Federal cost principles in OMB Circular A-87 and              grants fully complies with the allowability
the terms of the grants. The audit covered the                and allocability criteria mandated by OMB
period between July 1, 2000, and June 30, 2002.               Circular A-87.

        READ THE FULL REPORT                           In its response to our draft report, EDD officials
To view the report, including the scope,               stated they completed the recommended
                                                       corrective action. EDD officials also stated that
methodology, and full agency and EDD’s
                                                       adjustments of estimated costs to actual costs
response, go to                                        shows that ETA grants were undercharged by
                                                       $234,599 during the period July 1, 2000, through
http://www.oig.dol.gov/public/reports                  June 30, 2005.
/oa/2006/03-06-006-03-315.pdf
                                                       The report recommendations will be resolved
                                                       through ETA’s formal audit resolution process.
                                                         State of California Direct Costs Charged to ETA Grants




Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

RESULTS AND FINDING

    1. EDD Could Not Support the Basis for Allocation of $53.2 Million of Direct
       Labor Costs and $23.5 Million in Associated Costs........................................ 5

EXHIBITS...................................................................................................................... 11
    A. Sample Results on Use of Allocation Codes by EDD ...... ................. ............13

    B. Sampling Plan, Data Review and Cost Projections........................................ 15


APPENDICES ............................................................................................................... 19
    A. Background ....................................................................................................... 21

    B. Objective, Scope, Methodology and Criteria .................................................. 23

    C. Acronyms and Abbreviations........................................................................... 27

    D. Agency Response ............................................................................................. 29




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




 2                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                                       State of California Direct Costs Charged to ETA Grants




Executive Summary
We conducted a performance audit of $462.7 million in direct labor costs charged to
U.S. Department of Labor (DOL) Employment and Training Administration (ETA) grants
awarded to the State of California Employment Development Department (EDD) for
State Fiscal Years (SFYs) 2001 and 2002.

Objective

Were direct labor costs that EDD charged to ETA grants for SFYs 2001 and 2002
allowable and otherwise allocable under the Federal cost principles set forth in OMB
Circular A-87?

Results and Finding

EDD Could Not Support the Basis for Allocation of $53.2 Million of Direct Labor
Costs and $23.5 Million in Associated Costs

We audited $462.7 million in direct labor costs that EDD charged to ETA grants for
SFYs 2001 and 2002. We found that EDD could not support the basis for allocation of
about $76.7 million in costs claimed, including about $53.2 million of direct labor costs
and about $23.5 million in associated costs,1 because it allocated the costs on an
estimated basis and did not adjust the estimated costs to actual costs. This occurred
because EDD did not have adequate internal controls to ensure it complied with Federal
cost principles. Nothing came to our attention to question the support for the remaining
$386 million of direct labor costs we audited.

EDD officials told us that: (1) they believe the amounts charged to Federal programs
using allocation codes were reasonable and justified; (2) it is unreasonable to question
all Federal costs for an organization whose work primarily benefits the Federal
Government, simply because allocation codes were used; (3) the allocation codes were
reviewed, and revised as necessary, as the related business process changed; and (4)
as a result of the California State Auditor’s Single Audit Reports, EDD took many
positive steps to improve its allocation methodologies.

The use of predetermined percentages is permitted as long as they are supported, and
if estimated, they are reviewed quarterly and adjusted to actual. EDD allocated direct
labor costs on an estimated basis, but did not adjust the estimated costs to actual costs.

Costs that do not meet the Federal cost principles are unallowable and subject to
recovery, as provided under OMB Circular A-87, Attachment E, paragraph F. 5 - “Costs
specifically identified as unallowable and charged to Federal awards either directly or

1
    Associated costs consisted of: fringe benefits; non-personnel costs; and administrative, support and technical costs.

U.S. Department of Labor—Office of Inspector General                                                                    3
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants


indirectly will be refunded.” We acknowledge actions taken by EDD as stated in its
responses to the California State Auditor’s Single Audit Reports and documentation
they provided to us during our audit work. However, these corrective actions did not
address direct labor costs charged in SFYs 2001 and 2002. Our testing found that any
action taken for these SFYs was not effective to correct the problem.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

     1. Direct EDD to submit documentation to support the adjustment from estimated to
        actual costs concerning the $53.2 million of direct labor costs and $23.5 million in
        associated costs for SFYs 2001 and 2002. Based on the results of adjusting the
        estimated costs to actual costs, recover the amount of direct labor and
        associated costs that EDD overcharged the ETA grants, pursuant to OMB
        Circular A-87, Attachment E, paragraph F.5.

     2. Direct EDD to submit documentation to support the adjustment from estimated to
        actual costs charged to ETA grants for SFYs 2003 through 2005, and recover the
        amount of direct labor and associated costs that EDD overcharged the ETA
        grants.

     3. Direct EDD to submit for approval an allocation methodology for the costs that
        benefit more than one program or activity to assure its methodology for charging
        direct labor and associated costs to ETA grants fully complies with the
        allowability and allocability criteria mandated by OMB Circular A-87.

Agency Response

In their response to our draft report, EDD officials stated they adjusted 5 years of
sampled employee timesheet data from estimated to actual costs. The comparison of
questioned labor costs to the recalculated labor costs showed a net undercharge of
$234,599 to ETA grants during the period July 1, 2000, through June 30, 2005. EDD
officials also stated that effective July 1, 2005, EDD implemented the use of revised
cost pools and allocation procedures that they documented in its Indirect Cost Rate
Proposal. EDD officials stated they submitted the Indirect Cost Rate Proposal to the
DOL Regional Cost Negotiator and are waiting for approval.

EDD’s response in its entirety is attached to this report as Appendix D.

OIG Conclusion

The report recommendations will be resolved through ETA’s formal audit resolution
process.




 4                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                                       State of California Direct Costs Charged to ETA Grants




U.S. Department of Labor                                      Office of Inspector General
                                                              Washington, DC 20210




                                   Assistant Inspector General’s Report

Ms. Emily Stover DeRocco
Assistant Secretary for
  Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted an
audit of direct labor costs charged to ETA grant awards by the State of California’s
Employment Development Department (EDD) for State Fiscal Years (SFYs) 2001 and
2002. The audit objective was to determine whether the $462.7 million in direct labor
costs that EDD charged to ETA grants for SFYs 2001 and 2002 were allowable and
otherwise allocable under the Federal cost principles set forth in OMB Circular A-87.

We conducted the audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our audit objective, scope, methodology and criteria
are detailed in Appendix B.




Results and Finding - EDD Could Not Support the Basis for Allocation of $53.2 Million
of Direct Labor Costs and $23.5 Million in Associated Costs.

We audited $462.7 million in direct labor costs that EDD charged to ETA grants for
SFYs 2001 and 2002, and found that EDD could not support the basis for allocation of
about $76.7 million in costs claimed, including about $53.2 million of direct labor costs
and about $23.5 million in associated costs,2 because it allocated the costs on an
estimated basis and did not adjust the estimated costs to actual costs. This occurred
because EDD did not have adequate internal controls to ensure it complied with Federal
cost principles. Nothing came to our attention to question the support for the remaining
$386 million of direct labor costs we audited.

Attachment A to OMB Circular A-87 provides specific principles to be applied in
determining the allocability of costs.



2
    Associated costs consisted of: fringe benefits; non-personnel costs; and administrative, support and technical costs.

U.S. Department of Labor—Office of Inspector General                                                                    5
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants


Attachment A, paragraph C.3.a. states:

       A cost is allocable to a particular cost objective if the goods or services
       involved are chargeable or assignable to such cost objective in
       accordance with relative benefits received.

Attachment B to OMB Circular A-87 provides specific principles to be applied in
determining the allowability of selected items of costs. These principles apply whether a
cost is treated as direct or indirect.

Attachment B, paragraph 11.h(4) states:

       Where employees work on multiple activities or cost objectives, a
       distribution of their salaries or wages will be supported by personnel
       activity reports or equivalent documentation which meets the standards in
       subsection (5) unless a statistical sampling system (see subsection (6)) or
       other substitute system has been approved by the cognizant Federal
       agency. Such documentary support will be required where employees
       work on (a) more than one Federal award, (b) a Federal award and a non-
       Federal award. . . .

Attachment B, paragraph 11.h(5)(e) states:

       Budget estimates or other distribution percentages determined before the
       services are performed do not qualify as support for charges to Federal
       awards but may be used for interim accounting purposes, provided that:

        (i)     The governmental unit’s system for establishing the estimates
                produces reasonable approximations of the activity actually
                performed;

        (ii)    at least quarterly, comparisons of actual costs to budgeted
                distributions based on the monthly activity reports are made.
                Costs charged to Federal awards to reflect adjustments made as a
                result of the activity actually performed may be recorded annually if
                the quarterly comparisons show the differences between budgeted
                and actual costs are less than ten percent; and

        (iii)   the budget estimates or other distribution percentages are revised
                at least quarterly, if necessary, to reflect changed circumstances.

Attachment E, paragraph F. 5 to OMB Circular A-87 states: “Costs specifically identified
as unallowable and charged to Federal awards either directly or indirectly will be
refunded.”




 6                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants


Based on interviews with EDD Branch officials, review of findings in the California State
Auditor’s Single Audit Reports (SARs) for SFYs 2001 and 2002, and testing of a
statistical sample of 720 employees, we found that EDD charged direct labor costs and
associated costs based on allocation codes that did not meet the Federal cost principles
set forth in OMB Circular A-87, Appendix B, paragraph 11.h(5)(e). EDD used allocation
codes based on previously determined percentages to charge time for employees who
worked on more than one benefiting program, but EDD did not review and update the
allocation codes quarterly to provide actual time spent on projects.

We also found that EDD did not have adequate documentation to support the allocation
codes used for SFYs 2001 and 2002. For example, for the Information Technology (IT)
Branch, the manager told us that there was no support available for the allocation codes
used to charge salary costs to ETA grants. The manager also told us that the OMB
Circular A-87 required quarterly reviews were not performed during SFY 2001 and prior
years. The IT Branch Manager said that the Branch attempted to charge as much of its
costs as possible directly to projects; however, the Branch had at least 28 allocation
codes to charge costs to projects. The labor distribution percentages for these 28
allocation codes were estimated and based on funding sources and estimates of the
future use of staff hours on the particular project for which costs were to be shared.

The problems with the allocation codes were reported by the California State Auditor in
its Single Audit Reports for SFYs 1999, 2000 and 2001. The California State Auditor
reported that EDD charged staff time spent on administering various Federal programs
based on estimates rather than actual time worked. Additionally, they reported that
EDD could not provide any data to support the allocation codes used to estimate the
costs and could not produce evidence that it adjusted the percentages quarterly to
reflect more current circumstances. Accordingly, the California State Auditor reported
that EDD’s time distribution system substantially failed to meet the requirements of
OMB Circular A-87, Attachment B, Paragraph 11h.

To determine the effect of EDD not having a time distribution system that complied with
Federal cost principles, we audited a random sample of 720 employees. We selected
our sample from a universe of employees charged to ETA grants through use of labor
allocation codes, i.e., labor costs being split between two or more projects with at least
one being a ETA project. We eliminated the following from the original $604 million
universe of direct labor charges to ETA grants:

       1) all cost centers where employees worked only on State-funded programs,

       2) indirect cost centers, and

       3) those cost centers where employees were charging their labor to only one
          project.

We also eliminated all employees who had no hours worked. This process enabled us
to reduce the universe of 12,000 state employees to about 5,800 employees in SFY


U.S. Department of Labor—Office of Inspector General                                         7
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants


2001, and 6,200 employees in SFY 2002 working in those cost centers making
extensive use of allocation codes. These employees’ direct labor charges totaled
$462.7 million, or about $220.3 million and $242.4 million allocated to various projects
during SFYs 2001 and 2002, respectively.

We found that 127 employees, or 18 percent of our sample, used allocation codes
based on predetermined percentages to allocate their time to ETA grants. See Exhibit
A for details on which agencies were found to have used predetermined percentages.
Based on our statistical projection of the sample results, we question $76.7 million of
labor costs and associated costs charged to ETA grants for SFY 2001 and 2002. See
Exhibit B for details of our sampling plan and projections.

The following schedule table provides details of the questioned costs.

               Description                        2001              2002              Total
 Total Labor Costs Charged to ETA             $307,024,144      $297,758,220      $604,782,364
 Statistical Projection of                     $30,513,581       $22,704,134       $53,217,715
 Unallowable Labor Costs Charged
 to ETA Grants
 Statistical Projection of Other
 Costs Associated With
 Unallowable Labor:
    Personnel Benefits                         $ 6,716,026        $5,639,726       $12,355,752
    Operating Exp. & Equipment                   3,551,906         2,832,892         6,384,798
    Admin. Support & Technical                   2,680,543         2,057,196         4,737,739
    Total Other Unallowable Costs              $12,948,475       $10,529,814       $23,478,289
 Total Statistical Projection of               $43,462,056       $33,233,948       $76,696,004
 Unallowable Charges to ETA
 Grants

In April 2001, EDD developed and disbursed general guidelines for staff to follow when
establishing and documenting allocation codes. According to EDD’s response to the
March 2002, California State Auditor’s Single Audit Report for 2001, it had implemented
a new allocation code process as of July 1, 2001. EDD further said they planned to fully
implement the guidelines and develop documentation for all allocation codes during
SFY 2002. However, based on our audit results, we concluded the guidelines and
implementation of new allocations codes did not correct the problem.

We discussed the allocation code problem with managers in the Fiscal Programs
Division of the Administration Branch, which was responsible for EDD’s financial
matters with state and Federal agencies and the overall accountability for EDD’s funds.
The managers told us they believed the requirement that estimated allocation codes be
updated quarterly was overlooked until cited by the California State Auditors. They

 8                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants


believe that their current requirements on establishing and updating estimated allocation
codes would correct the problem. Additionally, in its September 30, 2005, response to
our preliminary findings and calculations of questioned costs, the Deputy Director for the
Administration Branch stated:

   •   the amounts charged to Federal programs using allocations codes were
       reasonable and justified;

   •   it is unreasonable to question all Federal costs for an organization whose work
       primarily benefits the Federal Government, simply because allocation codes
       were used;

   •   the allocation codes were reviewed, and revised as necessary, as the related
       business process changed; and

   •   as a result of the California State Auditor’s Single Audit Reports, EDD took many
       positive steps to improve its allocation methodologies.

Use of predetermined percentages is permitted by OMB Circular A-87 as long as they
are supported, and if estimated, they are reviewed quarterly and adjusted to actual.
EDD allocated direct labor costs on an estimated basis, but did not adjust the estimated
costs to actual costs.

Costs that do not meet the Federal cost principles are unallowable and subject to
recovery, as provided in OMB Circular A-87, Attachment E. paragraph F. 5 - “Costs
specifically identified as unallowable and charged to Federal awards either directly or
indirectly will be refunded.” Finally, we acknowledge actions taken by EDD in response
to the California State Auditor’s Single Audit Reports and provided to us during our audit
work. However, the corrective actions did not address direct labor costs charged in
SFYs 2001 and 2002. Our testing found that any actions taken for these SFYs were not
effective to correct the problem.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

   1. Direct EDD to submit documentation to support the adjustment from estimated to
      actual costs concerning the $53.2 million of direct labor costs and $23.5 million in
      associated costs for SFYs 2001 and 2002. Based on the results of adjusting the
      estimated costs to actual costs, recover the amount of direct labor and
      associated costs that EDD overcharged the ETA grants, pursuant to OMB
      Circular A-87, Attachment E, paragraph F.5.

   2. Direct EDD to submit documentation to support the adjustment from estimated to
      actual costs charged to ETA grants for SFYs 2003 through 2005, and recover the



U.S. Department of Labor—Office of Inspector General                                         9
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants


        amount of direct labor and associated costs that EDD overcharged the ETA
        grants.

     3. Direct EDD to submit for approval an allocation methodology for the costs that
        benefit more than one program or activity to assure its methodology for charging
        direct labor and associated costs to ETA grants fully complies with the
        allowability and allocability criteria mandated by OMB Circular A-87.

Agency Response

In response to our draft report, EDD officials responded that they completed
determining the adjustment of estimated allocated costs to actual for SFYs 2001 and
2002. The adjustments showed that ETA grants were undercharged $166,511. These
adjustments reflect EDD’s current cost pool methodology that was presented to the U.S.
Department of Labor Regional Cost Negotiator for the SFY 2005-06.

For SFYs 2003 through 2005, EDD analyzed the time sheets for the same employees
that OIG sampled for the audit. Based on this analysis, EDD officials projected that they
undercharged ETA grants by $68,088 for these SFYs.

Concerning submission of an allocation methodology to ensure compliance with
acceptable Federal cost principles, EED officials stated they completed an Indirect Cost
Rate Proposal (ICRP) for the period beginning July 1, 2005, that uses cost pools to
allocate actual costs to shared programs in accordance with Federal cost principles.
EDD submitted the ICRP for approval to the DOL Regional Cost Negotiator. The DOL
Regional Cost Negotiator is currently reviewing the allocation methodologies in the
ICRP.

OIG Conclusion

The report recommendations will be resolved through ETA’s formal audit resolution
process.




Elliot P. Lewis
October 12, 2005




10                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants




Exhibits




U.S. Department of Labor—Office of Inspector General                                        11
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants


                                         Exhibit A

                 Sample Results on Use of Allocation Codes by EDD

We found that 127 of 720 randomly selected employees used allocation codes that did
not meet the Federal cost principles to allocate their time to ETA projects. The following
table shows details by the EDD entity the 127 employees worked under:

                                             Sampled Employees in Which
                                             Allocation Codes Did Not Meet
                                                 Federal Cost Principles           Total
           Branch/Entity Type                  SFY 2001        SFY 2002          Employees
Information Technology (IT) Branch                       29              22              51
California UI Appeals Board (CUIAB)                      29              33              62
Program Review Branch                                     2               2               4
Operations Branch                                         2               0               2
Administrative Branch                                     5               3               8
Total Employees                                          67              60             127

IT Branch

The IT Branch was responsible for department-wide automation planning, policy,
application development, maintenance, support, operations, and oversight of
automation systems.

Our review of five allocation codes disclosed that the IT Branch based the percentages
on (1) estimates of the future use of staff hours on the particular project for which costs
were to be shared, and (2) the funding percentages between ETA programs.

CUIAB

The CUIAB adjudicated disputes between appellants/petitioners and the EDD through
an administrative hearing process in the areas of Unemployment Insurance (UI) and
Disability Insurance (DI). They also heard tax issues concerning UI, DI, and Personal
Income Tax withholding. The Appeals Board uses two levels of review. The field
operations level was composed of the Chief Administrative Law Judges Office and
eleven Regional Offices. They heard approximately 175,000 cases per year between
employees and employers in various locations throughout the State. The Appeals
Board level reviewed decisions rendered by field judges. The Board may affirm,
reverse, modify, set aside or remand a field decision.

Our review disclosed that 62 of 127 (49 percent) randomly selected employees working
for the CUIAB for SFYs 2001 and 2002 used allocation codes that did not meet Federal
cost principles for the direct charging of labor costs to ETA grants.




U.S. Department of Labor—Office of Inspector General                                        13
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants


Other EDD Branches

We found 14 of 127employees (11 percent) from other EDD Branches (e.g. Program
Review, Operations, and Administration) used allocation codes that did not meet
Federal cost principles to direct charge their labor costs to ETA grants for SFYs 2001
and 2002.




14                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants


                                                                                  EXHIBIT B

                  Sampling Plan, Data Review and Cost Projections

In order to determine the impact of EDD not having a time distribution system that
complied with Federal cost principles on ETA grants, we reviewed data from EDD on
the labor charges made to ETA grants during SFYs 2001 and 2002. The only overall
labor costs data EDD had available were monthly reports by cost center after allocation
codes were applied, showing employee name, social security, and labor costs by
project codes (programs). The Fiscal Program Division manager provided the 24
monthly reports that included the entire EDD workforce, selected CUIAB and other
State employees totaling about 12,000 employees.

Universe

For purposes of this test, we determined those employees charging ETA grants through
use of labor allocation codes, i.e., labor costs being split between two or more projects
with at least one being an ETA project. We eliminated the following from the original
$604 million universe of direct labor charges to ETA grants: (1) all cost centers where
employees worked only on State funded programs, (2) indirect cost centers, and (3)
those cost centers where employees were charging their labor to only one project.
Further, we eliminated all employees who were listed but had no hours worked. This
process enabled us to reduce the universe of 12,000 state employees to about 5,800
employees in SFY 2001 and 6,200 employees in SFY 2002. The direct labor charges
for these employees totaled $462.7 million, which consisted of $220.3 million and
$242.4 million for SFYs 2001 and 2002, respectively.

Random Sampling Technique

We determined that our review needed to include all employees charging ETA grants
through use of allocation codes for each of the 24 months. We selected a statistical
sample of employees for testing to determine whether or not labor costs charged to ETA
were in compliance with OMB Circular A-87. We determined the sample size using
mathematical formulas for stratified attribute variable design, and using a 95 percent
confidence level and +/- 5 percent sampling precision of the audit attributes. The 95
percent confidence level is an estimate of the degree of certainty that the population
average will be within the precision level selected. It is also called the assurance level.
For each SFY, the total sample was 360 employees, which we allocated to each month
using a uniform sampling fraction. This resulted in a sample of 30 employees for each
of the 24 months, for a total of 720 employees. We used random sampling techniques
contained in IDEA software to select 30 employees from each of the 24 months. The
direct labor costs for our sampled employees totaled approximately $2.3 million.




U.S. Department of Labor—Office of Inspector General                                        15
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants


Data Review and Evaluation of Labor and Associated Costs

Labor Costs

The purpose of reviewing the direct labor costs attributable to ETA projects for the 720
employees whose labor costs were split between projects was to determine whether the
use of allocation codes was in accordance with the requirements of OMB Circular A-87,
Attachment A. The Attachment requires that: (1) The allocation codes be based on the
benefits received by each project; (2) the allocation codes be reviewed and updated
quarterly; and (3) the allocation code process be adequately documented.

Accordingly, we tested and analyzed the following data for each employee in our
sample:

     •   Employee name and payroll number
     •   Sample and cost center number
     •   Hours worked and labor dollars by project
     •   Employee time sheet and EDD labor report
     •   Allocation code establishment date
     •   Date(s) allocation code were last updated

Based on this process, we determined whether or not each cost allocation code
applicable to the sampled employees met the above requirements of OMB Circular A-
87. If the requirements were not met on a case-by-case basis, the applicable labor
costs were considered to be questionable.

Associated Costs

To determine the questioned associated costs for the 127 employees who used the
allocation codes that did not meet A-87 requirements, we identified personnel benefits,
operating expense and equipment, and administrative support and technical costs. We
obtained and reviewed EDD’s cost accounting system manual and documentation to
support EDD’s methodology for allocating associated costs.

     Personal Benefits (PB): EDD provided the PB rates of 22.01 percent for SFY 2001
     and 24.84 percent for SFY 2002 and explained that PB costs were allocated based
     on the average benefit rate for all EDD employees. We computed the questioned
     associated PB costs by multiplying the questioned sample salary costs by the PB
     rates. We considered the reasonableness of the EDD provided PB rates for
     inclusion in our calculations.

     Operating Expense and Equipment (OE&E) and Administrative Support and
     Technical (AS&T) Costs: EDD uses position equivalents as a basis to determine
     costs associated with OE&E and AS&T costs. We determined the total sample
     number of position equivalents by dividing the questioned sample employee hours
     into the standard 2,080 annual number of hours. These position equivalents were

16                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants


   divided into the total EDD position equivalents to obtain a percentage. This
   percentage was multiplied by the EDD annual OE&E pool and AS&T pool to obtain
   the questioned cost amounts associated with OE&E and AS&T costs for the 127
   sampled employees for SFYs 2001 and 2002.

Projection of Questionable Labor and Associated Costs

We used the questioned salaries of the 127 employees and associated costs for PB,
OE&E, and AS&T to project the questioned costs over the universe of EDD employees
for SFYs 2001 and 2002.

We used the mathematical formulas for stratified sampling appraisal methodology on a
case-by-case basis showing whether or not the labor and associated costs for the
sample employees were allowable or unallowable. We determined the point estimates
and its standard errors. We selected the lower point estimates for reporting purposes.
The projections from this process are included in their entirety below.

                Type of                                        Total Projected
            Projected Costs     SFY 2001        SFY 2002      Questioned Costs

            Salary & Wages $30,513,581 $22,704,134                  $53,217,715

            PB                  $6,716,026      $5,639,726          $12,355,752

            OE&E                $3,551,906      $2,832,892            $6,384,798

            AS&T                $2,680,543      $2,057,196            $4,737,739

            Total              $43,462,056 $33,233,948              $76,696,004




U.S. Department of Labor—Office of Inspector General                                        17
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants




                                 Appendices




U.S. Department of Labor—Office of Inspector General                                        19
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants


                                       APPENDIX A
BACKGROUND

EDD served the people of California by acting as an agent between employers and job
seekers; paying benefits to eligible workers who become unemployed or disabled;
collecting payroll taxes; helping disadvantaged persons become self-sufficient;
gathering and sharing information on California’s labor markets; administering the
Workforce Investment Act program; and, ensuring that these activities are coordinated
with other organizations that also provided employment, training, tax collection and
benefit payment services.

EDD administered the Job Service (JS), Unemployment Insurance (UI), Disability
Insurance (DI), Workforce Investment Act, and Welfare-to-Work programs. As
California’s largest tax collection agency, EDD also handled the collection of
employment taxes and maintains employment records for more than 19 million workers.
EDD had about 12,000 employees located at hundreds of service locations throughout
the state providing many employment related services.

For SFYs ending June 30, 2001 and 2002, EDD reported that it incurred expenditures of
about $1 billion applicable to ETA programs. DOL grants are awarded primarily by
ETA.




U.S. Department of Labor—Office of Inspector General                                        21
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                           State of California Direct Costs Charged to ETA Grants


                           APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY AND CRITERIA

Objective

Our objective was to determine whether the direct labor costs that EDD charged to ETA
grants for SFYs 2001 and 2002 were allowable and otherwise allocable under the
Federal cost principles set forth in OMB Circular A-87.

Scope and Methodology

The scope of our audit pertained solely to the direct labor costs charged to and
reimbursed under ETA grant awards. We audited the $462.7 million of labor costs
charged to ETA grants during the SFYs 2001 and 2002. We did not perform an audit of
EDD’s total costs, the objective of which would have been the expression of an opinion
on the total costs claimed by EDD, and, accordingly, we do not express such an
opinion. We conducted the audit in accordance with Government Auditing Standards
for performance audits.

As part of our preliminary audit work, we reviewed the California State Auditor’s Single
Audit Report for SFY 2001 and found it disclosed that EDD did not adjust their
estimated time charges to actual. According to the report, EDD used dummy codes3 to
allocate staff time charges to Federal and state cost centers based on actual workload
analysis of actual performance. However, the documentation to support this assertion
was unavailable. Based on this, we focused our audit on EDD’s methodology for
charging employee labor personal services costs for the SFYs ending June 30, 2001,
and June 30, 2002, to ETA grant awards.

To achieve our audit objectives, we interviewed EDD officials to determine the
methodology used for allocating and charging EDD monthly billings to various benefiting
programs as required by OMB Circular A-87, Appendix B. We reviewed salaries and
wage costs charged to Federal grants to determine if they were allowable and allocable
to ETA programs.

To determine if the labor costs were allowable, we reviewed the salary and wage costs
for a random sample of 720 employees to ensure that at least quarterly, comparisons of
actual costs to budgeted distributions based on the monthly activity reports were made
for SFYs 2001 and 2002. Specifically, we compared the hours charged on the
timesheets to the hours, salary and wage costs reported on the EDD monthly 04A
Personal Services Report to determine if adjustments from budgeted/estimated to
actual costs were completed in accordance OMB Circular A-87, Attachment B
requirements. We did not perform detailed testing of payroll calculations.

3
 EDD’s CAS Reports Training Manual defines dummy codes as 6-digit codes comprised of project codes
plus activity codes. Dummy codes are used when an employee’s time or a good or service was
chargeable to one or more programs on a predictable basis.

U.S. Department of Labor—Office of Inspector General                                            23
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants


To determine if the costs were properly allocated, we reviewed the EDD project
allocation codes and percentages used to allocate an employee’s time to several
different projects. We reviewed the allocation codes to determine if the codes were
being reviewed and updated quarterly to provide actual time spent on projects.

In addition, we reviewed a random sample of 720 employee timesheets and the
allocation codes used to determine if salary and wage costs were charged to ETA
grants based on “relative benefits received.” Also, we reviewed the EDD cost
accounting system to determine the methodology used to allocate PB, OE&E, and
AS&T costs to State and Federal programs. We relied upon the PB rates, position
equivalents, and OE&E/AS&T pools provided by EDD management to calculate the
associated direct labor questioned costs. Although we did not test the information,
nothing came to our attention to indicate the information provided was unreliable. If the
data were erroneous, the amount of associated direct labor questioned costs could be
affected.

We examined the processes used by EDD to recover direct labor costs to assure that
only allowable costs were reimbursed. The objectives of this review pertained solely to
the direct labor costs applicable to and reimbursed under ETA grant awards. We
audited the $462.7 million of labor costs charged to ETA grants during the SFYs 2001
and 2002. We did not perform an audit of EDD’s total costs.

Due to the large number of employees involved, we used (1) random sampling
techniques to select employees for review, and (2) statistical mathematical formulas to
project the impact with a 95 percent level of confidence. Exhibit B contains a detailed
presentation on the review methodology for the random sampling of employees, the
data reviewed, and the projected unallowable costs.

We relied upon the work of the State’s independent auditors regarding the reliability of
the source of EDD’s reported expenditures. We reviewed their independent audit
reports for SFY 1999 through 2001, and found the State audits included examining, on
a test basis, evidence of the State of California’s compliance with the major
requirements of laws, regulations, contracts, and grants applicable to its major Federal
programs as required by OMB Circular A-133. A-133 required that the California State
Auditor perform the audit to obtain reasonable assurance about whether noncompliance
with the major requirements could have a direct and material effect on a major Federal
program which includes ETA programs administered by EDD. In addition, we
reconciled the DOL Standard Form 269 Financial Status Report to EDD detail
expenditure reports to ensure that costs charged to DOL ETA programs were actually
charged to DOL ETA grants.

In planning and performing our audit, we considered internal controls over direct labor
costs charged to ETA grants by obtaining an understanding of EDD’s internal controls,
determined whether internal controls had been placed in operation, assessed control
risk, and performed tests of internal controls in order to determine our auditing
procedures for the purpose of achieving our objective. Our consideration of the


24                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants


program’s internal controls would not necessarily disclose all matters that might be
reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.

This audit was performed in accordance with Generally Accepted Government Auditing
Standards for performance audits. The objective of our audit did not include expressing
a formal written opinion on the reasonableness and allowability of the total claimed
costs by EDD, its system of internal controls, or its compliance with laws and
regulations applicable to all Federal grants/contracts. We performed procedures to rely
on work of Independent Public Accountants (IPAs). Specifically, we monitored the IPAs’
fieldwork, reviewed their audit workpapers, and performed supplemental tests. We also
performed statistical projections of sample EDD employees determined to have
estimated their labor costs charged to DOL ETA grant programs.

Initial audit fieldwork was performed at EDD offices in Sacramento, California, primarily
during the period January 14, 2003, through March 11, 2003. An entrance conference
was held on January 14, 2003, and an exit conference was held on March 11, 2003.
However, following the exit conference, we performed a significant amount of analysis
on the results of our sample which required contact with EDD officials via telephone,
email, and regular mail through October 2005. EDD officials provided a written
response to our preliminary findings and calculations of questioned costs in which they
provided additional information that resulted in revisions to our sample results and
questioned costs calculations.

Criteria

Workforce Investment Act (WIA). Section 18 of WIA, Formula Grant Program Annual
Funding Agreement Assurances, requires States to comply with all applicable
requirements of all other Federal laws, executive orders, regulations and policies
governing this program. EDD’s grant agreements require compliance with the Act
which mandates compliance with the applicable OMB cost principles circulars.

Title 29 of the Code of Federal Regulations (CFR) part 97, Uniform Administrative
Requirements for Grants and Cooperative Agreement. CFR part 97 contains a
number of compliance requirements which must be met in order for costs to be
allowable. Among other things, the costs must be in accordance with generally
accepted accounting principles, and the grant accounting records must be supported by
adequate source documentation such as canceled checks, paid bills, payroll records,
time and attendance records, contract and subcontract award documents, etc.

OMB Circular A-87. OMB Circular A-87 provides the principles for payment of
allowable, reasonable, and allocable incurred costs charged to Federal grants by state
and local agencies. The following provides details from OMB Circular A-87 on the
general principles for determining allowable costs.




U.S. Department of Labor—Office of Inspector General                                        25
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants


General Principles for Determining Allowable Costs

Attachment A to OMB Circular A-87 establishes general principles for determining
allowable direct costs incurred by state, local, and Indian tribal governments under
grants, cost-reimbursement contracts, and other agreements with Federal agencies.
The principles are established for the purpose of determining the reasonableness,
allowability, and allocability of costs claimed, and are not intended to dictate the extent
of Federal or contractor/grantee participation in the financing of a particular program or
project. The principles are designed to ensure that the Federal Government bears its
fair share of costs incurred, except where specifically restricted or prohibited by law.

Under OMB Circular A-87, Attachment A, costs charged to Federal programs must meet
the tests of allowability, reasonableness, and allocability. To be allowable, costs must
be: necessary and reasonable for proper and efficient performance and administration
of Federal awards and allocable to Federal awards, and the allocation code process be
adequately documented.

Costs may be considered reasonable if, in its nature and amount, it does not exceed
that which would be incurred by a prudent person under the circumstances prevailing at
the time the decision was made to incur the costs. The question of reasonableness is
particularly important when governmental units or components are predominantly
Federally funded.

Costs are considered allocable to a particular cost objective if the goods or services
involved are chargeable or assignable to such cost objectives in accordance with the
“relative benefits received.”

Attachment B to OMB Circular A-87 provides specific principles to be applied in
determining the allowability or unallowability of selected items of costs. These
principles apply whether a cost is treated as direct or indirect.




26                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants


                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS

EDD           Employment Development Department

CUIAB         California Unemployment Insurance Appeals Board

DI            Disability Insurance

DOL           U.S. Department of Labor

ETA           U.S. Department of Labor, Employment and Training Administration

ICRP          Indirect Cost Rate Proposal

IPA           Independent Public Accountant

IT            Information Technology Branch, EDD

JS            Job Service

OIG           U.S. Department of Labor, Office of Inspector General

OMB           U.S. Office of Management and Budget

SFY           State Fiscal Year – July 1 to June 30

UI            Unemployment Insurance




U.S. Department of Labor—Office of Inspector General                                        27
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants


                                                                               APPENDIX D
                       AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                        29
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants




30                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants




U.S. Department of Labor—Office of Inspector General                                        31
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants




32                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants




U.S. Department of Labor—Office of Inspector General                                        33
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants




34                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants




U.S. Department of Labor—Office of Inspector General                                        35
Report Number: 03-06-006-03-315
State of California Direct Costs Charged to ETA Grants




36                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 03-06-006-03-315
                                         State of California Direct Costs Charged to ETA Grants




U.S. Department of Labor—Office of Inspector General                                        37
Report Number: 03-06-006-03-315
